No. 21-164
IN THE

bupreme Court of die &niter% 6tate5
TRUSTEES OF THE NEW LIFE IN CHRIST CHURCH,
Petitioners,
v.
CITY OF FREDERICKSBURG, VIRGINIA,
Respondent.

CORRECTED CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Motion for Leave
to File Amici Curiae Brief and Brief of Amici Ethics & Religious Liberty Commission
of the Southern Baptist Convention, Christian Life and Public Affairs Committee of
the South Carolina Baptist Convention, Southern Baptists of Texas Convention and
Tennessee Baptist Mission Board in Support of Petitioners contain 385 and 3,141
words, respectively, excluding the parts of the brief that are exempted by Supreme
Court Rule 33.1(d).
Executed on September 8, 2021.

Jo J. BURSC
AL IANCE DEFENDING FREEDOM
440 First Street NW, Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org

